Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

January 21, 2020
BY ELECTRONIC FILING & HAND DELIVERY
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Kenneth Sealey, et al. v. J. Duane Gilliam, et al., No. 19-680

Dear Mr. Harris,
We represent Respondents in the above-referenced matter. On January 10,
2020, this Court requested a response to the Petition for a Writ of Certiorari, which
is currently due on February 10, 2020. Respondents respectfully request a 21-day
extension of time to file their response, to and including Monday, March 2, 2020.
The extension is warranted because of a press of other matters undersigned
counsel is handling that are pending in this Court and other courts, including
expedited proceedings in In re Federal Bureau of Prisons’ Execution Protocol Cases,
No. 19-5322 (D.C. Cir.); a reply brief in Amgen Inc. v. Iancu, No. 19-2171 (Fed. Cir.),
due on January 21; a petition for a writ of certiorari in Farrar v. Raemisch, No. 181005 (10th Cir.), due by January 27; and an appellees’ brief in American Hospital
Association v. Azar, No. 19-5352 (D.C. Cir.) due on February 20.
Petitioners have indicated that they do not consent to this request.
Thank you for your consideration.
Respectfully submitted,
/s/ Catherine E. Stetson
Catherine E. Stetson
Counsel for Respondents
cc:

James R. Morgan Jr., Counsel of Record for Petitioners, Womble Bond
Dickinson (US) LLP

Hogan Lovells US LLP is a limited liability partnership registered in the District of Columbia. “Hogan Lovells” is an international legal practice that includes Hogan Lovells US
LLP and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels Colorado Springs Denver Dubai
Dusseldorf Frankfurt Hamburg Hanoi Ho Chi Minh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami Milan
Minneapolis Monterrey Moscow Munich New York Northern Virginia Paris Perth Philadelphia Rio de Janeiro Rome San Francisco São Paulo Shanghai Silicon
Valley Singapore Sydney Tokyo Warsaw Washington DC Associated offices: Budapest Jakarta Shanghai FTZ Ulaanbaatar Zagreb. Business Service Centers:
Johannesburg Louisville. For more information see www.hoganlovells.com

